<html>
<title> - MEETING ON A RESOLUTION RELATED TO THE SUBCOMMITTEE ASSIGNMENTS OF MAJORITY MEMBERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
  MEETING ON A RESOLUTION RELATED TO THE SUBCOMMITTEE ASSIGNMENTS OF 
                            MAJORITY MEMBERS

=======================================================================

                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             MEETING HELD IN WASHINGTON, DC, JUNE 27, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html





                     U.S. GOVERNMENT PRINTING OFFICE

36-786 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
MICHAEL E. CAPUANO, Massachusetts      Ranking Minority Member
CHARLES A. GONZALEZ, Texas           DANIEL E. LUNGREN, California
SUSAN A. DAVIS, California           KEVIN McCARTHY, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


 MEETING ON RESOLUTION RELATED TO SUBCOMMITTEE ASSIGNMENTS OF MAJORITY 
                                MEMBERS

                              ----------                              


                        WEDNESDAY, JUNE 27, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:32 a.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Lofgren, Capuano, and Davis 
of Alabama.
    Staff Present: Liz Birnbaum, Staff Director; Teri Morgan, 
Deputy Staff Director; Michael Harrison, Professional Staff; 
Matt Pinkus, Professional Staff/Parliamentarian; Kristin 
McCowan, Chief Legislative Clerk; Kristie Muchnok, Professional 
Staff; Fred Hay, Minority General Counsel; and Bryan Dorsey, 
Minority Professional Staff.
    The Chairman. Good morning, everyone. I would like to call 
the House Administration Committee meeting to order. The 
Committee meeting will come to order. We have several brief 
housekeeping matters to adjust before I adjourn the meeting and 
move to the hearing.
    The Chair would first like to announce his appointment of 
the gentlewoman from California, Representative Zoe Lofgren, to 
be the Vice Chair of the Committee on House Administration for 
the 110th Congress.
    In addition, on June 15th, the Speaker formally announced 
the appointment of the six members of the bipartisan Commission 
on Congressional Mailing Standards, also known as the Franking 
Commission. Speaker Pelosi appointed four members from our 
committee to serve, Representative Mike Capuano to be Chairman 
for the 110th Congress, along with Representative Sherman and 
our colleague Representative Davis of Alabama. Representative 
Vern Ehlers will be the Ranking Minority Member, along with 
Representative Price of Georgia, and our colleague, 
Representative McCarthy.
    The Chair now calls up for consideration Committee 
Resolution No. 5, which elects Mr. Davis of Alabama to fill the 
existing vacancy on the Subcommittee on Elections.
    Without objection, the committee resolution is approved. 
There being no further business, the meeting stands adjourned.
    [Whereupon, at 11:34 a.m., the committee was adjourned.]
    [Information follows:]

                   COMMITTEE ON HOUSE ADMINISTRATION

                       Committee Resolution No. 5

                        [Adopted June 27, 2007]

    Resolved, that Representative Davis of Alabama is hereby elected to 
the Subcommittee on Elections.

                                  <all>

</pre></body></html>
